No. 20-1385
IN THE SUPREME COURT OF THE UNITED STATES
TAREK OBAID, PETITIONER
v.
UNITED STATES OF AMERICA.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 2ND day of July, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5182
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on _July 2, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 2, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to mailing
your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is acceptable to
you, please fax your brief to Charlene Goodwin, Supervisory Case Management Specialist, Office of the
Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone
number is (202) 514-2217 or 2218.

20-1385
OBAID, TAREK
USA

DAVID B. RIVKIN JR.
BAKER & HOSTETLER LLP
1050 CONNECTICUT AVENUE, N.W.
SUITE 1100
WASHINGTON, DC 20036
202-861-1731
DRIVKIN@BAKERLAW.COM

